<html>
<title> - POPULATION PLANNING</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]




 
                          POPULATION PLANNING

=======================================================================

                               EXCERPTED

                                from the

                           2011 ANNUAL REPORT

                                 of the

              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 10, 2011

                               __________

 Printed for the use of the Congressional-Executive Commission on China













<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>







         Available via the World Wide Web: http://www.cecc.gov


                                _____

                  U.S. GOVERNMENT PRINTING OFFICE
71-187 PDF                WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001






              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                    LEGISLATIVE BRANCH COMMISSIONERS

House

                                     Senate

CHRISTOPHER H. SMITH, New Jersey,    SHERROD BROWN, Ohio, Cochairman
Chairman                             MAX BAUCUS, Montana
                                     CARL LEVIN, Michigan
                                     DIANNE FEINSTEIN, California
                                     JEFF MERKLEY, Oregon
                                     SUSAN COLLINS, Maine
                                     JAMES RISCH, Idaho

                     EXECUTIVE BRANCH COMMISSIONERS

                  SETH D. HARRIS, Department of Labor
                    MARIA OTERO, Department of State
              FRANCISCO J. SANCHEZ, Department of Commerce
                 KURT M. CAMPBELL, Department of State
     NISHA DESAI BISWAL, U.S. Agency for International Development

                     Paul B. Protic, Staff Director

                 Lawrence T. Liu, Deputy Staff Director

                                  (ii)








                          Population Planning

                                Findings

        <bullet> Chinese government officials continued to 
        implement population planning policies that interfere 
        with and control the reproductive lives of its 
        citizens, especially women, employing various methods 
        including fines, withholding of state benefits and 
        permits, forced sterilization, forced abortion, and 
        arbitrary detention to punish policy violations.
        <bullet> The Commission observed in 2011 the continued 
        practice by local governments of specifically targeting 
        migrant workers for coercive implementation of family 
        planning policies.
        <bullet> The PRC Population and Family Planning Law is 
        not consistent with the standards set by the 1995 
        Beijing Declaration and the 1994 Programme of Action of 
        the Cairo International Conference on Population and 
        Development. Controls imposed on Chinese women and 
        their families and additional abuses engendered by the 
        system, from forced abortion to discriminatory policies 
        against ``out-of-plan'' children, also violate 
        standards in the Convention on the Elimination of All 
        Forms of Discrimination against Women, the Convention 
        on the Rights of the Child, and the International 
        Covenant on Economic, Social and Cultural Rights. China 
        is a state party to these treaties and is bound to 
        uphold their terms.
        <bullet> The Chinese government does not consistently 
        implement provisions in the PRC Population and Family 
        Planning Law (PFPL) that prohibit and provide 
        punishment for abuses in the implementation of 
        population planning policies. Article 4 of the PFPL 
        states that officials shall ``enforce the law in a 
        civil manner, and they may not infringe upon the 
        legitimate rights and interests of citizens.'' Under 
        Article 39, an official is subject to criminal or 
        administrative punishment if, in the implementation of 
        population planning policies, the official ``infringes 
        on a citizen's personal rights, property rights, or 
        other legitimate rights and interests'' or ``abuses his 
        power, neglects his duty, or engages in malpractices 
        for personal gain . . . .''
        <bullet> September 2010 marked the 30th anniversary of 
        the beginning of China's current family planning 
        efforts, and following this anniversary, the Commission 
        observed increased public discussion of the prospects 
        for family planning policy reform. Top Communist Party 
        and government leaders continue to publicly defend the 
        policy and rule out its cancellation in the near-term.
        <bullet> The Chinese government's population planning 
        policies continue to exacerbate the country's 
        demographic challenges, including a severely imbalanced 
        sex ratio--the highest in the world--an aging 
        population, and a decline in the working age 
        population.
        <bullet> Authorities released Chen Guangcheng, a self-
        trained legal advocate who publicized population 
        planning abuses, from prison after he had completed his 
        full sentence on September 9, 2010. Following his 
        release, however, authorities have kept Chen and his 
        family under ``soft detention,'' or home confinement, 
        and continued to subject them to abuse and restrictive 
        control.

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

        <all> Urge Chinese government officials to cease 
        coercive methods of enforcing family planning policies. 
        Urge the Chinese government to dismantle coercive 
        population controls and provide greater reproductive 
        freedom and privacy for women.
        <all> Urge the Chinese government to reevaluate the PRC 
        Population and Family Planning Law and bring it into 
        conformance with international standards set forth in 
        the 1995 Beijing Declaration and the 1994 Programme of 
        Action of the Cairo International Conference on 
        Population and Development, as well as the Convention 
        on the Elimination of All Forms of Discrimination 
        against Women, the Convention on the Rights of the 
        Child, and the International Covenant on Economic, 
        Social and Cultural Rights.
        <all> Urge China's central and local governments to 
        enforce vigorously provisions under Chinese law that 
        provide for punishments of officials and other 
        individuals who violate the rights of citizens when 
        implementing population planning policies. Urge the 
        Chinese government to establish penalties, including 
        specific criminal and financial penalties, for 
        officials and individuals found to commit abuses such 
        as coercive abortion and coercive sterilization--
        practices that continue in China despite provisions 
        under existing laws and regulations intended to 
        prohibit them. Urge the Chinese government to delink 
        material and financial incentives for officials from 
        their performance in implementing family planning 
        policies and thereby reduce or remove the impetus for 
        unlawful practices.
        <all> Support the development of programs and 
        international cooperation on legal aid and training 
        programs that help citizens pursue compensation under 
        the PRC State Compensation Law and that help citizens 
        pursue other remedies against the state for injury 
        suffered as a result of official abuse related to 
        China's population planning policies.
        <all> Call on the Chinese government to release Chen 
        Guangcheng and his family from extralegal detention and 
        to permit them to enjoy the freedoms of movement, 
        expression, and association, as provided under Chinese 
        law and international standards to which the Chinese 
        government has committed.

                              Introduction

    China's population planning policies in both their nature 
and implementation violate international standards. During the 
Commission's 2011 reporting year, central and local authorities 
continued to implement population planning policies in a manner 
that interferes with and controls the reproductive lives of 
Chinese citizens, especially women. Population planning 
policies limit most women in urban areas to bearing one child, 
while permitting slightly more than half of Chinese women--
located in many rural areas--to bear a second child if their 
first child is female.\1\ The Commission notes continued debate 
in the Chinese media about possible reform of these policies, 
but has not observed government action to introduce national 
reform measures.
    Local officials continue to monitor the reproductive cycles 
of Chinese women in order to prevent unauthorized births. The 
Chinese government requires married couples to obtain a birth 
permit before they can lawfully bear a child and forces them to 
employ contraceptive methods at other times. Although Chinese 
law prohibits officials from infringing upon the rights and 
interests of citizens while promoting compliance with 
population planning policies, reports during this reporting 
year indicate that abuses continue. Mandatory abortion, which 
is often referred to as a ``remedial measure'' (bujiu cuoshi) 
in government reports, is endorsed explicitly as an official 
policy instrument in the regulations of at least 18 of China's 
31 provincial-level jurisdictions.\2\ This past year, the 
Commission found that local officials continued to coerce women 
with unauthorized pregnancies to undergo abortions in both 
urban and rural areas across China.

                        International Standards

    China's population planning policies in both their nature 
and implementation constitute human rights violations according 
to international standards. The 1995 Beijing Declaration and 
the 1994 Programme of Action of the Cairo International 
Conference on Population and Development provide for the 
freedom to make reproductive decisions.\3\ The PRC Population 
and Family Planning Law and provincial implementing guidelines, 
however, limit couples' freedom of reproductive choice by 
stipulating if, when, and how often they may bear children.\4\ 
Other domestic policies coerce compliance with population 
planning targets through heavy fines.\5\ Controls imposed on 
Chinese women and their families and additional abuses 
engendered by the system, from forced abortion to 
discriminatory policies against ``out-of-plan'' children, 
violate standards in the Convention on the Elimination of All 
Forms of Discrimination against Women,\6\ the Convention on the 
Rights of the Child,\7\ and the International Covenant on 
Economic, Social and Cultural Rights.\8\ China is a state party 
to these treaties and is bound to uphold their terms.

                        Coercive Implementation

    Chinese law prohibits certain types of official behavior in 
the implementation of population planning policies. For 
example, Article 4 of the PRC Population and Family Planning 
Law (PFPL) states that officials ``shall perform their 
administrative duties strictly in accordance with the law, and 
enforce the law in a civil manner, and they may not infringe 
upon the legitimate rights and interests of citizens.'' \9\ 
Article 39 states that an official is subject to criminal or 
administrative punishment if he ``infringes on a citizen's 
personal rights, property rights, or other legitimate rights 
and interests'' or ``abuses his power, neglects his duty, or 
engages in malpractices for personal gain'' in the 
implementation of population planning policies.\10\ Despite 
these provisions, the Commission has noted continued abuses in 
the 2011 reporting year, as illustrated by the examples of 
official campaigns and individual cases of abuse below.


                           official campaigns


    During the 2011 reporting year, authorities in some areas 
implemented population planning enforcement campaigns--in some 
cases dubbed ``spring family planning service activities'' 
(chunji jisheng fuwu xingdong)--that employed coercive measures 
to prevent or terminate ``out-of-plan'' pregnancies.\11\ For 
example, in March 2011, the Yangchun city government in 
Guangdong province reported that one such campaign had 
commenced and that the ``focal points'' of the campaign were 
the sterilization of mothers with two daughters and the 
implementation of ``remedial measures'' for out-of-plan 
pregnancies.\12\ Yangchun family planning officials were 
directed to adopt ``man-on-man military tactics,'' ``launch 
meticulous ideological work,'' and ``storm the fortifications 
of `nail households' (dingzi hu) \13\ and `flight households' 
(waitao hu) \14\ in a targeted manner.'' \15\
    The Commission noted that this year, in official speeches 
and government reports from a wide range of localities, 
authorities also used the phrase ``spare no efforts'' (quanli 
yifu) to signify intensified enforcement measures and less 
restraint on officials who oversee coercive population planning 
implementation measures. Between November 2010 and June 2011, 
county and township governments in at least eight provincial-
level jurisdictions (Shandong,\16\ Anhui,\17\ Gansu,\18\ 
Guangdong,\19\ Hunan,\20\ Guangxi,\21\ Hubei,\22\ and Jiangxi 
\23\) urged officials to ``spare no efforts'' in implementing 
family planning campaigns including, in some cases, the ``two 
inspections and four procedures'' (liangjian sishu)--or 
intrauterine device (IUD) inspections and pregnancy inspections 
(the two inspections), IUD implants, first-trimester abortions, 
mid- to late-term abortions, and sterilization (the four 
procedures).\24\
    Reports surfaced in May 2011 regarding official 
implementation of population planning policies which resulted 
in the illegal abduction and sale of children by local 
officials. From 2000 to 2005 in Hunan province,\25\ family 
planning officials reportedly took at least 16 children--
allegedly born in violation of population planning policies--
from their families and sold them to local orphanages.\26\ In 
many of the reported cases, officials took the children because 
their families could not pay the steep fines levied against 
them for violating population planning regulations.\27\


                  individual cases of violent coercion


    Numerous reports emerged this past year illustrating family 
planning officials' use from 2009 to 2011 of violence to coerce 
sterilizations, abortions, or payment of fines. The following 
are representative cases that occurred in eight different 
provinces.

        <bullet> Hunan. In February 2009, local family planning 
        officials reportedly kidnapped Liu Dan, 39 weeks 
        pregnant with her first child, and forced her to 
        undergo an abortion because she had not yet reached the 
        age at which she could be legally married to the 
        child's father. Liu and the child reportedly died 
        during the procedure.\28\

        <bullet> Anhui. In July 2010, local family planning 
        officials reportedly kidnapped 23-year-old Li Hongmei 
        and forced her to undergo a sterilization procedure. 
        She later filed a lawsuit, which the local county 
        people's court did not accept on the grounds that the 
        case was ``unclear.'' \29\

        <bullet> Yunnan. In September 2010, officials 
        reportedly destroyed a man's home, harassed his family, 
        and reportedly beat his 67-year-old mother because the 
        man did not return home to pay family planning fines 
        and undergo a mandatory sterilization procedure.\30\

        <bullet> Shandong. In September 2010, local family 
        planning officials reportedly forced a woman surnamed 
        Xie to undergo an abortion when she was six months 
        pregnant because her husband had been three months 
        younger than the legal marriage age at the time the 
        child was conceived.\31\

        <bullet> Fujian. In October 2010, local family planning 
        officials reportedly kidnapped a woman who was eight 
        months pregnant and detained her for 40 hours. They 
        then forcibly injected her with a substance which 
        aborted the fetus. During this time, the woman's 
        husband was reportedly not permitted to see her.\32\

        <bullet> Henan. In November 2010, local family planning 
        officials reportedly kidnapped a man in order to force 
        him to pay the remainder of a fine for having a second 
        child. The same day, the village head notified his 
        family that he was in the hospital. When the family 
        went to see him, they reportedly found him dead under 
        unknown circumstances.\33\

        <bullet> Guizhou. In May 2011, local family planning 
        officials reportedly beat Zhang Xuequn and her husband 
        and forced her to undergo surgical implantation of an 
        intrauterine device, despite the fact that she showed 
        them her valid marriage license and birth permits and 
        that she was technically accountable to the government 
        in her home province of Zhejiang.\34\

        <bullet> Jiangxi. In May 2011, local officials 
        reportedly beat Zhang Julan and forced her to undergo 
        tubal ligation surgery after she and 10 other villagers 
        went to the town government to discuss officials' 
        illegal requisition of land. Zhang remained in the 
        hospital for at least one month following the procedure 
        due to injuries she sustained while in official 
        custody.\35\

                        Punishments and Rewards

    Chinese authorities continued to use various methods of 
punishment and reward to manage citizens' compliance with 
population planning policies. For example, in accordance with 
national policy,\36\ local governments continued to direct 
officials to levy fines, termed ``social compensation fees'' 
(shehui fuyang fei), against couples who give birth to an 
unauthorized child.\37\ These fines force many couples to 
choose between undergoing an unwanted abortion and incurring 
financial hardship.\38\ Often with court approval, family 
planning officials are permitted to take ``forcible'' action 
against families who are unwilling or unable to pay the 
fines.\39\ These ``forcible'' actions are in violation of the 
PRC Population and Family Planning Law and include the 
confiscation of family belongings and the destruction of 
violators' homes.\40\
    In some cases officials not only levy fines against 
violators but also threaten or impose other punitive measures, 
including job loss, demotion, denial of promotion, expulsion 
from the Communist Party, destruction of personal property, 
arbitrary detention, and, in some cases, violence.\41\ Some 
children may go without household registration (hukou) in China 
because they are born ``out-of-plan'' and their parents do not 
pay the necessary fines.\42\ According to sources cited in a 
December 2010 Chinese Human Rights Defenders report, family 
planning officials in some cases also reportedly withhold a 
hukou from an otherwise eligible child whose mother refuses to 
undergo sterilization or IUD insertion after the child's 
birth.\43\ Lack of a valid hukou raises barriers to access to 
social benefits typically linked to the hukou, including 
government-subsidized healthcare and public education.\44\ [For 
additional discussion of China's hukou system, see Section II--
Freedom of Residence and Movement.]
    Some local governments offer rewards to informants who 
report population planning violations. Local government reports 
during the 2011 reporting year mentioned rewards for informants 
in amounts ranging from 100 yuan (US$15) to 6,000 yuan (US$926) 
per case for verified information on violations by either 
citizens or officials, including concealment of out-of-plan 
births, false reports of medical procedures, and falsified 
family planning documents.\45\ Conversely, authorities in one 
neighborhood in Chifeng city, Inner Mongolia Autonomous Region, 
offered a reward of up to 20,000 yuan (US$3,085) for 
information regarding non-medically necessary prenatal sex 
determination examinations or performance of a sex-selective 
abortion.\46\
    Local governments similarly incentivized family planning 
officials to ensure strict implementation of population 
planning policies. For example, in March 2011, the Maojing 
township government in Qingyang city, Gansu province, issued a 
report on the ``outstanding results'' of the government's 
``rectification activities.'' \47\ The report calls for 
officials to ``spare no efforts'' (quanli yifu) in implementing 
population policies and notes that village cadres face a 
penalty of 1,500 yuan (US$230) for each woman with two 
daughters whom they fail to sterilize. Conversely, they are 
promised a reward of 500 yuan (US$77) for each tubal ligation 
that they see through to completion.\48\ A March 2011 directive 
from the Yangchun city government in Guangdong province 
indicated a goal of fostering ``friendly one-upmanship'' and 
``keen competition'' among family planning cadres, calling for 
daily progress reports and participation in ``information 
sharing meetings'' in which they are publicly praised or 
criticized based on their reports.\49\ [See Official Campaigns 
above.]

                       Targeting Migrant Workers

    As in prior years, the Commission observed during its 2011 
reporting year a number of reports indicating that some local 
governments continue to target migrant workers specifically for 
implementation, in some cases coercively, of family planning 
policies. For example, in April 2011, the Sucheng township 
government in Zuoquan county, Jinzhong municipality, Shanxi 
province, called for a one-month ``superior services, superior 
management'' campaign targeting migrant worker women ``who had 
given birth, were pregnant, or may become pregnant again.'' As 
part of the ``superior management'' efforts, Sucheng officials 
were directed to ``adopt remedial measures''--a term often used 
to refer to mandatory abortion--for out-of-plan pregnancies and 
``levy social compensation fees in accordance with the law'' 
for out-of-plan births.\50\ In November 2010, the Tangshan city 
government in Hebei province reprinted a China Population 
Report article on the ``Six Rights and Six Obligations of the 
Migrant Population.'' Obligations 5 and 6 directed that migrant 
workers whose contraceptive measures ``fail'' should ``promptly 
adopt remedial measures'' and that migrant workers who violate 
family planning laws and regulations should pay the appropriate 
``social compensation fees.'' \51\ The Commission also noted 
directives from local governments in several provinces, 
including Jiangsu,\52\ Guangdong,\53\ Shandong,\54\ and 
Zhejiang,\55\ instructing local officials to take advantage of 
the spring festival timeframe--a period when many migrant 
workers return home to be with family--to target the migrant 
population for family planning policy implementation and 
services. [For additional information on official treatment of 
migrant workers, see Section II--Freedom of Residence and 
Movement and Section II--Worker Rights.]

                      Prospects for Policy Reform

    September 2010 marked the 30th anniversary of the beginning 
of China's current family planning policies,\56\ and following 
this anniversary, the Commission observed increased public 
discussion of the prospects for family planning policy 
reform.\57\ According to a March 2011 Xinhua report, officials 
in five provinces will introduce relaxed population planning 
trial measures in 2011, allowing a second child for some 
couples in which both persons are only children.\58\ The same 
``loosened'' measures are already in effect in major 
municipalities including Shanghai,\59\ Beijing,\60\ and 
Tianjin.\61\ While census data released in 2011 may have also 
sparked new debate among Chinese leaders regarding family 
planning policies,\62\ top Communist Party and government 
leaders continue to publicly defend the policy and rule out its 
cancellation in the near term.\63\

                        Demographic Consequences

    The Chinese government's population planning policies 
continue to exacerbate the country's demographic challenges, 
including an aging population, diminishing workforce, and 
skewed sex ratio. Affected in recent decades by government 
restrictions on the number of births per couple, China's total 
fertility rate has dropped from 6.1 births per woman in 1949 
\64\ to an estimated 1.5 births per woman in 2011,\65\ 
resulting in the rapid growth of China's aging population and 
decline in the working-age population. In the 2011 reporting 
year, officials continued to express concern about China's 
aging population and its present and anticipated strain on the 
country's social services.\66\ Several reports also have 
emerged projecting that the recent decline in China's working-
age population may result in significant labor shortages by as 
soon as 2013.\67\ [For additional information on China's 
projected labor shortage, see Section II--Worker Rights.]
    In response to government-imposed birth limits and in 
keeping with a traditional cultural bias for sons, Chinese 
parents continue the practice of sex-selective abortion,\68\ 
contributing to a severely skewed sex ratio--the highest sex 
ratio in the world.\69\ In August 2011, Chinese state media 
noted that China's sex ratio at birth ``is increasing,'' citing 
the remarks of a senior Chinese health official at a press 
conference.\70\ Some social and political scientists argue that 
large numbers of ``surplus males'' could create social 
conditions that the Chinese government may choose to address by 
expanding military enlistment.\71\ Reports in the 2011 
reporting year have also suggested a possible linkage between 
China's large number of ``surplus males'' and an increase in 
the trafficking of women and children for forced marriage or 
commercial sexual exploitation.\72\ In August 2011, the State 
Council issued the PRC Outline for the Development of Children 
(2011-2020), which urged officials to ``step up efforts against 
the use of ultrasound and other [forms of technology] to engage 
in non-medically necessary sex determination and sex-selective 
abortion.'' \73\

------------------------------------------------------------------------
                      Case Update: Chen Guangcheng
-------------------------------------------------------------------------
  Public security officials continue to hold prominent rights advocate
 Chen Guangcheng and his family under ``soft detention,'' or home
 confinement, following his release from prison on September 9, 2010,
 after serving his full sentence.\74\ Authorities reportedly beat Chen
 Guangcheng and his wife Yuan Weijing in their home on February 8 \75\
 and February 18, 2011.\76\ The beatings are believed to be in
 connection with the couple's recording of video footage, released on
 ChinaAid's Web site on February 9, in which Chen and Yuan spoke of the
 official abuse and restrictive control the family has faced since
 Chen's release.\77\ Officials reportedly did not permit Chen and Yuan
 to seek medical care for their injuries sustained in the beatings.\78\
 Foreign journalists and a ``netizen'' who attempted to visit Chen's
 village following the release of this video reported encountering
 ``groups of violent, plainclothes thugs.'' \79\ Police also reportedly
 detained several lawyers and rights defenders in Beijing in February
 after they met to discuss Chen's case.\80\
------------------------------------------------------------------------


------------------------------------------------------------------------
                 Case Update: Chen Guangcheng--Continued
-------------------------------------------------------------------------
  Chen is a self-trained legal advocate who drew international news
 media attention to population planning abuses, particularly forced
 abortions and forced sterilizations, in Linyi city, Shandong province,
 in 2005.\81\ The Yinan County People's Court tried and sentenced Chen
 in August 2006 to four years and three months in prison for
 ``intentional destruction of property'' and ``organizing a group of
 people to disturb traffic order.'' \82\ Chen's trial, retrial, and
 treatment in prison prompted repeated criticism for criminal procedure
 violations and infringement of the rights of Chen and his family.\83\
 Chen reportedly remains under ``soft detention'' with his family, and
 his six-year-old daughter reportedly has not been permitted to leave
 the house to attend school.\84\
------------------------------------------------------------------------

                                Endnotes

    \1\ The population planning policy was first launched in 1979, 
canonized as a ``fundamental state policy'' in 1982, and codified as 
national law in 2002. As of 2007, 19 of China's 31 provincial-level 
jurisdictions--accounting for 53.6 percent of China's population--allow 
rural dwellers to have a second child if their first child is a girl. 
Gu Baochang et al, ``China's Local and National Fertility Policies at 
the End of the Twentieth Century,'' 33 Population and Development 
Review 133, 138 (2007). Other exceptions to the one-child rule vary by 
provincial-level jurisdiction, and include some exceptions for ethnic 
minorities. See ``The Origin of China's Current Birth Policy'' 
[Zhongguo xianxing shengyu zhengce youlai], China Net, 18 April 08; 
Chinese Human Rights Defenders, ``I Don't Have Control Over My Own 
Body,'' 21 December 10, 6. According to Chinese Human Rights Defenders, 
``In 1984, the Central Committee issued a document outlining its 
`current family planning policy,' which stated that rural residents 
with one daughter could have a second child, while ethnic minorities 
could have between two and four children. Since then, even more 
exceptions to the original `one-child' rule have been added by local 
governments. These exceptions are numerous, detailed and differ across 
the country. For example, the Shandong Provincial Population and Family 
Planning Regulations lists 14 circumstances in which couples are 
permitted to have more than one child.''
    \2\ This number is based on Commission analysis of population 
planning measures. These jurisdictions include Tianjin, Zhejiang, 
Guangdong, Shandong, Fujian, Hebei, Hubei, Chongqing, Shaanxi, 
Heilongjiang, Shanxi, Xinjiang, Henan, Qinghai, Jiangxi, Sichuan, 
Guangxi, Anhui, Gansu, Yunnan, and Guizhou. For two specific examples, 
see ``Revised `Guangdong Province Population and Family Planning 
Regulations' Published'' [Xiuding hou de ``guangdong sheng renkou yu 
jihua shengyu tiaoli'' gongbu], Guangzhou Beiyun District Zhongloutian 
Public Information Net, 29 June 09; ``Jiangxi Province Population and 
Family Planning Regulations'' [Jiangxi sheng renkou yu jihua shengyu 
tiaoli], Jiangxi News Net, 11 April 09; Bureau of Democracy, Human 
Rights, and Labor, U.S. Department of State, ``Country Report on Human 
Rights Practices--2008, China (includes Tibet, Hong Kong, and Macau),'' 
25 February 09, 6. The Beijing Municipal Population and Family Planning 
Commission clearly draws the link between the term ``remedial 
measures'' and abortion: ``early term abortion refers to the use of 
surgery or pharmaceutics to terminate a pregnancy before the 12th week 
of gestation, it is a remedial measure taken after the failure of 
contraception.'' See Beijing Municipal Population and Family Planning 
Commission, ``Early Term Abortion'' [Zaoqi rengong liuchan], 10 April 
09.
    \3\ Beijing Declaration and Platform for Action (1995), para. 17. 
The Beijing declaration states, ``The explicit recognition and 
reaffirmation of the right of all women to control all aspects of their 
health, in particular their own fertility, is basic to their 
empowerment.'' Cairo International Conference on Population and 
Development, para. 7.2. The Cairo International Conference on 
Population and Development states, ``Reproductive health . . . implies 
. . . that people are able to have . . . the capability to reproduce 
and the freedom to decide if, when and how often to do so. Implicit in 
this last condition are the right of men and women to be informed and 
to have access to safe, effective, affordable and acceptable methods of 
family planning of their choice . . . .'' On the concept of ``illegal 
pregnancy'' and its use in practice, see Elina Hemminki et al., 
``Illegal Births and Legal Abortions--The Case of China,'' Reproductive 
Health, Vol. 2, No. 5 (2005).
    \4\ PRC Population and Family Planning Law [Zhonghua renmin 
gongheguo renkou yu jihua shengyu fa], adopted 29 December 01, 
effective 1 September 02, art. 18. According to Article 18, ``The State 
maintains its current policy for reproduction, encouraging late 
marriage and childbearing and advocating one child per couple. Where 
the requirements specified by laws and regulations are met, plans for a 
second child, if requested, may be made.'' Implementing regulations in 
different provinces vary on the ages at which couples may give birth 
and the number of children they are permitted to have. See Chinese 
Human Rights Defenders, ``I Don't Have Control Over My Own Body,'' 21 
December 10, 6-7.
    \5\ Chinese Human Rights Defenders, ``I Don't Have Control Over My 
Own Body,'' 21 December 10, 18-19. See, e.g., Pan Lihua, Qingdao 
Municipal Population and Family Planning Commission, ``Shinan District: 
Spare No Efforts in Completing Population Planning, Welcome Inspection 
Work'' [Shinanqu: quanli yifu zuohao jisheng ying jian gongzuo], 16 
November 10; Zhu Xiulin, Xiushui County Government, ``[Xiushui] County 
Plans To Deploy 2011 New Year Spring Family Planning Service 
Activities'' [Wo xian anpai bushu 2011 nian yuandan chunjie qijian 
jihua shengyu fuwu huodong], 15 January 11; Wu Yapeng, Songyang County 
Government, ``Fengping Town Strengthens Family Planning Work'' 
[Fengping xiang jiaqiang jisheng gongzuo lidu], 5 May 11; Taihe County 
Open Government Information Platform, ``Chengjiang Township Launches 
Population Planning Concentrated Fortification Campaign'' [Chengjiang 
zhen kaizhan jihua shengyu jizhong gongjian huodong], 14 April 11.
    \6\ Convention on the Elimination of All Forms of Discrimination 
against Women, adopted and opened for signature, ratification, and 
accession by General Assembly resolution 34/180 of 18 December 79, 
entry into force 2 September 81, China signed 17 July 80, ratified 4 
November 80, arts. 2-3, 16(1)(e).
    \7\ Convention on the Rights of the Child, adopted and opened for 
signature, ratification, and accession by UN General Assembly 
resolution 44/25 of 20 November 89, entry into force 2 September 90, 
China signed 29 August 90, ratified 2 March 92, arts. 2-4, 6, 26.
    \8\ International Covenant on Economic, Social and Cultural Rights 
(ICESCR), adopted by UN General Assembly resolution 2200 A (XXI) of 16 
December 66, entry into force 3 January 76, China signed 27 October 97, 
ratified 27 March 01, art. 10(3).
    \9\ PRC Population and Family Planning Law [Zhonghua renmin 
gongheguo renkou yu jihua shengyu fa], enacted 29 December 01, 
effective 1 September 02, art. 4.
    \10\ Ibid., art. 39.
    \11\ See, for example, Maonan District Population and Family 
Planning Bureau, ``Leaders Pay Attention, Responsibilities Fulfilled, 
Real Action Taken, Maonan District Spring Family Planning Concentrated 
Services Campaign [Achieves] Outstanding Results'' [Lingdao zhongshi, 
zeren luoshi, zhenzhua shigan, maonanqu chunji jisheng jizhong fuwu 
huodong chengxiao xianzhu], 13 May 11; Chenzhou City People's 
Government, ``(Shijiao Town) Early Planning, Early Activities To 
Soundly Launch Spring Family Planning Centralized Services Campaign'' 
[(Shijia xiang) zao mouhua, zao xingdong zhashi kaizhan chunji jisheng 
jizhong fuwu huodong], 21 February 11; Yangchun City People's 
Government, ``Chuncheng Neighborhood Spring Family Planning Services 
Activities Off to a Good Start'' [Chuncheng jiedao chunji jisheng fuwu 
huodong kaiju hao], 4 March 11.
    \12\ Yangchun City People's Government, ``Chuncheng Neighborhood 
Spring Family Planning Services Activities Off to a Good Start'' 
[Chuncheng jiedao chunji jisheng fuwu huodong kaiju hao], 4 March 11.
    \13\ ``Nail households'' is used in this context to refer to 
families who resist government population planning efforts.
    \14\ ``Flight households'' is used in this context to refer to 
families who have left their homes to evade official reprisal for 
noncompliance with population planning policies.
    \15\ Yangchun City People's Government, ``Chuncheng Neighborhood 
Spring Family Planning Services Activities Off to a Good Start'' 
[Chuncheng jiedao chunji jisheng fuwu huodong kaiju hao], 4 March 11.
    \16\ Pan Lihua, Qingdao Municipal Population and Family Planning 
Commission, ``Shinan District: Spare No Efforts in Completing 
Population Planning, Welcome Inspection Work'' [Shinanqu: quanli yifu 
zuohao jisheng ying jian gongzuo], 16 November 10.
    \17\ Population and Family Planning Commission of Huoqiu County, 
``[Huoqiu] County Convenes County-wide Second Quarter Family Planning 
Focused Services Work Meeting'' [Woxian zhaokai quanxian di'er jidu 
jihua shengyu jizhong fuwu gongzuohui], 25 January 11; Mingguang City 
Open Government Information Net, ``Longshan Community Spares No Efforts 
in Carrying Out Family Planning Special Clean-Up Work'' [Longshan shequ 
quanli yifu zuohao jihua shengyu zhuanxiang qingli gongzuo], 1 April 
11.
    \18\ Shandan County Population and Family Planning Commission, 
``Weiqi Town 2011 Population and Family Planning Work Plan'' [Weiqi 
zhen 2011 nian renkou he jihua shengyu gongzuo anpai], 28 February 11; 
Population and Family Planning Commission of Gansu, ``Shenchuan Town 
Proposes Four Measures and Launches Spring Family Planning Superior 
Services Activity'' [Shenchuan xiang sicuo bingju kaizhan chunji jihua 
shengyu youzhi fuwu huodong], 28 March 11.
    \19\ Su Xianchao, Yangchun City People's Government, ``Chuncheng 
Neighborhood Spring Family Planning Services Activities Off to a Good 
Start'' [Chuncheng jiedao chunji jisheng fuwu huodong kaiju hao], 4 
March 11.
    \20\ Tang Zhenghai and Gong Ren, ``Luxi Spares No Efforts in 
Contending To Become the Province-wide Model County in Population and 
Family Planning Work'' [Luxi quanli yifu zheng chuang quansheng renkou 
jisheng gongzuo mofan xian], Unity Newspaper, reprinted in Xiangxi 
Tujia Autonomous Prefecture Official Web site, 21 March 11.
    \21\ People's Government of Tengxian Guangxi, ``Pingfu Town 
Proposes Many Measures and Launches Spring Family Planning Superior 
Services Activities'' [Pingfu xiang duo cuo bingju kaizhan chunji jihua 
shengyu youzhi fuwu huodong], 12 April 11.
    \22\ Population and Family Planning Commission of Gong'an County, 
``Maojiagang Town 2011 Annual First-Half-of-the-Year Population and 
Family Planning Work Situation'' [Maojianggang zhen 2011 niandu 
shangbannian renkou he jihua shengyu gongzuo qingkuang], 25 May 11.
    \23\ Fengcheng City People's Government, ``Hutang Town Population 
and Family Planning Action Month-Long Exercise Achieves Three Clear 
Results'' [Hutang xiang jihua shengyu xingdong yue huodong qude sange 
mingxian chengxiao], 2 June 11.
    \24\ For one such example in which the two examinations and four 
procedures are clearly enumerated, see Population and Family Planning 
Commission of Gong'an County, ``Maojiagang Town 2011 Annual First-Half-
of-the-Year Population and Family Planning Work Situation'' 
[Maojianggang zhen 2011 niandu shangbannian renkou he jihua shengyu 
gongzuo qingkuang], 25 May 11. Some government reports refer to ``three 
examinations,'' instead of two. The third examination in these 
references is an examination for the presence of a gynecological 
disease or illness. Chinese Human Rights Defenders, ``I Don't Have 
Control Over My Own Body,'' 21 December 10, 10.
    \25\ The original source, Caixin, reported that the abductions 
happened between 2000 and 2005. The New York Times reported that the 
abductions occurred between 1999 and 2006. Shangguan Jiaoming, ``In 
Hunan, Family Planning Turns to Plunder,'' Caixin Net, 10 May 11; 
Sharon LaFraniere, ``Chinese Officials Seized and Sold Babies, Parents 
Say,'' New York Times, 4 August 11.
    \26\ Shangguan Jiaoming, ``In Hunan, Family Planning Turns to 
Plunder,'' Caixin Net, 10 May 11; Sharon LaFraniere, ``Chinese 
Officials Seized and Sold Babies, Parents Say,'' New York Times, 4 
August 11; Zhao Hejuan, ``Hunan Officials Launch Inquiry Over Sale of 
Children,'' Caixin Net, 16 May 11.
    \27\ Shangguan Jiaoming, ``In Hunan, Family Planning Turns to 
Plunder,'' Caixin Net, 10 May 11; Sharon LaFraniere, ``Chinese 
Officials Seized and Sold Babies, Parents Say,'' New York Times, 4 
August 11.
    \28\ Chinese Human Rights Defenders, ``I Don't Have Control Over My 
Own Body,'' 21 December 10, 12.
    \29\ ``Anhui Young Married Woman Undergoes Forced Sterilization, 
Lawsuit Rejected by Courts'' [Anhui shaofu bei qiangzhi jueyu, xiang 
fayuan ti qisu zaoju], Radio Free Asia, 17 November 10.
    \30\ ``Zhaotong, Yunnan Villagers Accused of Exceeding Birth 
Limits, Town Officials Destroy New House and Accuse Entire Family'' 
[Yunnan zhaotong cunmin bei zhi chaosheng, zao xiangguan daohui xinfang 
zhulian quanjia], Radio Free Asia, 29 October 10.
    \31\ Chinese Human Rights Defenders, ``I Don't Have Control Over My 
Own Body,'' 21 December 10, 12. For another example of violence during 
family planning implementation in Shandong, see Chinese Human Rights 
Defenders, ``Another Bloody Family Planning Case Erupts in Chen 
Guangcheng's Hometown Linyi, 22 Year Old Youth Cruelly Killed'' [Chen 
guangcheng laojia linyi zai bao jisheng xue'an, 22 sui qingnian canzao 
shahai], 27 March 11. According to this report, in March 2011, local 
family planning officials and hired personnel entered the home of Xu 
Shuaishuai in order to take away his sister for an unnamed birth 
control surgery. In an argument that ensued between his father and the 
personnel, Xu came to his father's defense and reportedly was fatally 
stabbed by one of the personnel.
    \32\ ``Xiamen Woman Eight Months Pregnant Forced To Abort, Also 
Kidnapped and Beaten'' [Xiamen huaiyun bageyue funu bei qiangzhi 
yinchan, bing ceng canzao bangjia ji ouda], Radio Free Asia, 13 October 
10. See also Chinese Human Rights Defenders, ``I Don't Have Control 
Over My Own Body,'' 21 December 10, 10.
    \33\ ``Henan Villager Beaten to Death for Exceeding Birth Limit, 
Thousand People Carry Coffin and Protest at Town Government'' [Henan 
cunmin yin chaosheng bei dasi, qianren tai guancai zhenzhengfu kangyi], 
Radio Free Asia, 19 November 10.
    \34\ Chinese Human Rights Defenders, ``Hangzhou Woman Forcibly 
Subjected to Birth Control Surgery in Guizhou Province'' [Hangzhou nuzi 
zai guizhou bei qiangxing zuo jieyu shoushu], 22 May 11. For an 
additional case of coercive implementation in Guizhou, see Chinese 
Human Rights Defenders, ``Another Violent Family Planning Incident 
Outside of Guiyang'' [Guiyang chengjiao zaici fasheng baoli jihua 
shengyu shijian], 30 May 11.
    \35\ Chinese Human Rights Defenders, ``Xinyu Village, Jiangxi Woman 
Undergoes Forced Tubal Ligation for Exposing Illegal Land Requisition'' 
[Jiangxi xinyu cunfu yin jielu weigui zhengdi bei qiangzhi jieza], 19 
June 11.
    \36\ PRC Measures for Collection of Social Compensation Fees 
[Shehui fuyang fei zhengshou guanli banfa], issued 2 August 02, 
effective 1 September 02, arts. 3, 7.
    \37\ See, e.g., Pan Lihua, Qingdao Municipal Population and Family 
Planning Commission, ``Shinan District: Spare No Efforts in Completing 
Population Planning, Welcome Inspection Work'' [Shinanqu: quanli yifu 
zuohao jisheng ying jian gongzuo], 16 November 10; Zhu Xiulin, Xiushui 
County Government, ``[Xiushui] County Plans To Deploy 2011 New Year 
Spring Festival Family Planning Service Activities'' [Wo xian anpai 
bushu 2011 nian yuandan chunjie qijian jihua shengyu fuwu huodong], 15 
January 11; Wu Yapeng, Songyang County People's Government, ``Fengping 
Town Strengthens Family Planning Work'' [Fengping xiang jiaqiang 
jisheng gongzuo lidu], 5 May 11; Taihe County Open Government 
Information Platform, ``Chengjiang Township Launches Population 
Planning Campaign Focused on Storming the Fortifications'' [Chengjiang 
zhen kaizhan jihua shengyu jizhong gongjian huodong], 24 December 10.
    \38\ Chinese Human Rights Defenders, ``I Don't Have Control Over My 
Own Body,'' 21 December 10, 18.
    \39\ Bureau of Democracy, Human Rights and Labor, U.S. Department 
of State, ``Country Reports on Human Rights Practices--2010, China 
(includes Tibet, Hong Kong, and Macau),'' 8 April 11, 54. For more 
information on the role of courts in family planning implementation, 
see Chinese Human Rights Defenders, ``I Don't Have Control Over My Own 
Body,'' 21 December 10, 27.
    \40\ PRC Population and Family Planning Law [Zhonghua renmin 
gongheguo renkou yu jihua shengyu fa], adopted 29 December 01, 
effective 1 September 02, art. 39. According to Article 39, officials 
are to be punished either criminally or administratively for the 
following acts: ``(1) infringing on a citizen's personal rights, 
property rights or other legitimate rights and interests; (2) abusing 
his power, neglecting his duty or engaging in malpractices for personal 
gain; (3) demanding or accepting bribes; (4) withholding, reducing, 
misappropriating or embezzling funds for family planning or social 
maintenance fees; or (5) making false or deceptive statistic data on 
population or family planning, or fabricating, tampering with, or 
refusing to provide such data.''
    \41\ See, e.g., Pingdu Government Affairs Net, ``Are Village 
Officials Relieved From Their Post if They Violate Population Planning 
Policies During Their Term of Office? '' [Cunguan renqinei weifan jihua 
shengyu falu fagui zhongzhi zhiwu ma?], 16 February 11; ``Hunan 
Officials Launch Inquiry Over Sale of Children,'' Caixin Net, 16 May 
11; Chinese Human Rights Defenders, ``I Don't Have Control Over My Own 
Body,'' 21 December 10, 19-23. See also CECC, 2008 Annual Report, 31 
October 08, 97.
    \42\ Chinese Human Rights Defenders, ``I Don't Have Control Over My 
Own Body,'' 21 December 10, 13, 26. According to the report, ``The 
management of the hukou system is the domain of the Ministry of Public 
Security and it refuses to issue hukous to children without birth 
permits, children of unmarried parents, and children whose parents for 
some reason have not completed the required procedures. Without a 
hukou, a child cannot apply for an ID card and thus does not have a 
legal identity, is not a citizen and consequently is deprived of the 
rights accorded to other Chinese citizens.'' Zhang Hui, ``City Cuts 
Fines on Second Child,'' Global Times, 23 August 10. According to one 
expert quoted in this report, ``Children born outside State scrutiny 
will enjoy equal rights as the first child only after the family pays 
the fine and registers them.''
    \43\ Chinese Human Rights Defenders, ``I Don't Have Control Over My 
Own Body,'' 21 December 10, 15-16.
    \44\ Yan Hao and Li Yanan, ``Urban Hukou, or Rural Land? Migrant 
Workers Face Dilemma,'' Xinhua, 10 March 10; Tao Ran, ``Where There's a 
Will, There's a Way To Reform,'' China Daily, 22 March 10.
    \45\ See, e.g., Jishan County People's Government, ``Jishan County 
Population and Family Planning Report Reward System and Report 
Telephone Number'' [Jishan xian renkou yu jihua shengyu youjiang jubao 
zhidu he jubao dianhua], 27 April 11; Tai'an City People's Government, 
``Family Planning Report Reward Measures'' [Jihua shengyu youjiang 
jubao banfa], 20 November 04; Chengguan Town People's Government, 
``Fengtai County Chengguan Town Family Planning Report Reward 
Implementation Program'' [Fengtai xian chengguan zhen jihua shengyu 
youjiang jubao shishi fang'an], 17 March 11; Yulong Neighborhood Web 
site, ``Family Planning Report Reward System'' [Jihua shengyu youjiang 
jubao zhidu], 12 June 11. See also Chinese Human Rights Defenders, ``I 
Don't Have Control Over My Own Body,'' 21 December 10, 15-16.
    \46\ Yulong Neighborhood Web site, ``Family Planning Report Reward 
System'' [Jihua shengyu youjiang jubao zhidu], 12 June 11.
    \47\ Li Haixi, Population and Family Planning Commission of 
Qingyang, ``Effectiveness of Maojing Township Family Planning 
Concentrated Remediation Activities Significant'' [Maojing xiang jihua 
shengyu jizhong zhengzhi huodong chengxiao xianzhu], 28 March 11.
    \48\ Ibid.
    \49\ Yangchun City People's Government, ``Chuncheng Neighborhood 
Spring Family Planning Services Activities Off to a Good Start'' 
[Chuncheng jiedao chunji jisheng fuwu huodong kaiju hao], 4 March 11.
    \50\ ``Zuoquan County Sucheng Township Launches `Two Superiors' 
Family Planning Activities for Migrant Worker Population'' [Zuoquan 
xian sucheng xiang kaizhan liudong renkou jihua shengyu `shuang you' 
huodong], China Net Focus on Shanxi, 4 April 11.
    \51\ ``The Six Rights and Six Obligations of the Migrant 
Population'' [Liudong renkou de liuxiang quanli he liuxiang yiwu], 
China Population Report, reprinted in Tangshan City People's 
Government, 23 November 10.
    \52\ Qidong City People's Government, ``Circular Regarding Soundly 
Completing 2011 Springtime Population and Family Planning Services 
Management Work for Migrant Populations'' [Guanyu zhashi zuohao 2011 
nian chunjie qijian liudong renkou jihua shengyu fuwu guanli gongzuo de 
tongzhi], 19 January 11.
    \53\ Fengyang Neighborhood Web site, ``Fengyang Street Actively 
Launches Migrant Population Investigation, Cleanup and Services 
Management Work'' [Fengyang jie jiji kaizhan liudong renkou qingcha 
qingli he fuwu guanli gongzuo], 10 March 11.
    \54\ Dongying City People's Government, ``Circular Regarding 
Completing Migrant Population Family Planning Management Services Work 
During the Spring Festival'' [Guanyu zuohao chunjie qijian liudong 
renkou jihua shengyu guanli fuwu gongzuo de tongzhi], 25 January 11.
    \55\ Shaoxing City Yuecheng District People's Government, ``Jishan 
Street Launches Spring Festival Migrant Population Services Promotion 
Event'' [Jishan jiedao kaizhan chunjie qijian liudong renkou xuanchuan 
fuwu huodong], 26 January 11.
    \56\ Feng Wang and Cai Yong, The Brookings Institution, ``China's 
One Child Policy at 30,'' 24 September 10.
    \57\ The Commission observed an increase in reports from domestic 
academic observers as well as state-controlled media outlets discussing 
family planning policy reform in late 2010 and surrounding the 2011 
annual meetings of the National People's Congress and Chinese People's 
Political Consultative Conference. Several reports highlighted debate 
among officials and experts. See, for example, Zuo Xuejin, ``Time To 
Drop the One-Child Policy,'' Chinadialogue, 15 September 10; 
``Guangdong Province Population and Family Planning Committee Director 
Zhang Feng: There Is Hope for Two Child Policy in 2033'' [Guangdong 
sheng jishengwei zhuren zhang feng: 2033 nian you wang fangkai sheng er 
tai], Sina, 24 September 10; ``China May Expand Two-Child Policy to 
Urban Areas,'' People's Daily, 7 March 11; Jeremy Page, ``On Beijing 
Topic List: One-Child Policy's Future,'' Wall Street Journal, 9 March 
11; ``Li Yining Discusses Adjusting Family Planning Policy: Relaxation 
Is Not Unrestricted'' [Li yining tan tiaozheng jihua shengyu zhengce: 
fangkai bushi wu xianzhi], People's Daily, reprinted in Phoenix Net, 10 
March 11; ``Delegates Debate Easing of China's One-Child Policy,'' 
Xinhua, 12 March 11; Mu Guangzong, ``Debate: Family Planning,'' China 
Daily, 21 March 11; Josh Noble, ``End of the One-Child Policy Coming? 
'' Financial Times, 8 March 11.
    \58\ ``Two-Child Policy May Be Tried in Some Areas, Difficult To 
Implement Nationwide in the Short-Term'' [Fangkai sheng ertai zhengce 
keneng shidian duanqi nanyi quanmian shishi], Xinhua, 12 October 10. 
See also Mimi Lau, ``Get Ready for an Easing of the One-Child Policy in 
2033,'' South China Morning Post, 26 September 10.
    \59\ Central People's Government of the People's Republic of China, 
``Shanghai Municipality Population and Family Planning Commission: 
Urban Residents Who Meet One of 12 Criteria May Have a Second Child'' 
[Shanghai shi renkou jisheng wei: shimin fu 12 zhong tiaojian zhiyi ke 
sheng ertai], 28 July 09.
    \60\ Beijing Municipal Commission of Population and Family 
Planning, ``Beijing Municipal Commission of Population and Family 
Planning Publishes Circular on the Provisions on Examination and 
Approval for the Birth of a Second Child'' [Beijing shi renkou he jihua 
shengyu weiyuanhui yinfa ``guanyu shenpi shengyu di'er ge zinu de 
guiding'' de tongzhi], reprinted in Beijing Language and Culture 
University, 14 April 04.
    \61\ Tianjin Beichen District Commission on Population and Family 
Planning, ``Tianjin Municipality Current Policy on Giving Birth to a 
Second Child'' [Tianjin shi xianxing shengyu ertai zhengce], 15 July 
10.
    \62\ ``China Census Shows Population Aging Rapidly,'' Associated 
Press, reprinted in USA Today, 28 April 11; ``Population Census Data 
Shows That It Is Appropriate To Do a Pragmatic Readjustment of 
Population Policy'' [Renkou pucha shuju xianshi dui renkou zhengce yi 
zuo wushi tiaozheng], Study Times, reprinted in Hexun, 17 May 11; 
``Challenges and Countermeasures,'' Beijing Review, 26 May 11.
    \63\ ``President Hu Pledges To Keep China's Birth Rate Low To 
Ensure Economic Growth,'' Associated Press, reprinted in Washington 
Post, 27 April 11. In a March 5 work report, Premier Wen Jiabao stated, 
``We will adhere to the basic state policy on family planning and 
progressively improve it.'' Wen Jiabao, ``Full Text: Report on the Work 
of the Government,'' Xinhua, 15 March 11.
    \64\ ``Total Population, CBR, CDR, NIR and TFR in China (1949-
2000),'' China Daily, 20 August 10.
    \65\ U.S. Central Intelligence Agency, ``The World Factbook,'' 
accessed 14 June 11. While China's National Bureau of Statistics 
estimated China's fertility rate at 1.8 in 2007, in May 2011 a group of 
Chinese academics publicly refuted the number, stating that it had been 
``grossly overestimated.'' These academics estimate that China's total 
fertility rate more accurately stands anywhere from 1.63 to below 1.5. 
See ``China's Total Fertility Rate Grossly Overestimated: Academic,'' 
Caijing, 17 May 11.
    \66\ ``China's Aging Population Big Challenge to Pension System: 
Minister,'' Xinhua, 8 March 11; ``Vast `Empty Nests,' Disabled Aging 
Population Challenging China's Social Network,'' Xinhua, 2 March 11. Of 
particular concern are China's pension and healthcare systems. For more 
information on China's limited capacity to support its aging 
population, see Nicholas Eberstadt, Swiss Re Center for Global 
Dialogue, ``The Demographic Risks to China's Long-Term Economic 
Outlook,'' 24 January 11, 7.
    \67\ ``National Labor Shortage Looms on Horizon,'' Global Times, 3 
May 11; Jui-te Shih and Staff Reporter, ``Labor Shortages Spread to 
More Regions, Industries in China,'' Want China Times, 17 June 11; 
Jianmin Li, Jamestown Foundation, ``China's Looming Labor Supply 
Challenge? '' 8 April 11; Nicholas Eberstadt, Swiss Re Center for 
Global Dialogue, ``The Demographic Risks to China's Long-Term Economic 
Outlook,'' 24 January 11, 3.
    \68\ PRC Population and Family Planning Law [Zhonghua renmin 
gongheguo renkou yu jihua shengyu fa], adopted 29 December 01, 
effective 1 September 02, art. 22. According to Article 22, 
``Discrimination against, maltreatment, and abandonment of baby girls 
are prohibited.'' State Commission for Population and Family Planning, 
Ministry of Health, State Food and Drug Administration, Regulations 
Regarding the Prohibition of Non-medically Necessary Gender 
Determination Examinations and Sex-Selective Termination of Pregnancy'' 
[Guanyu jinzhi fei yixue xuyao de tai'er xingbie jianding he xuanze 
xingbie de rengong zhongzhi renshen de guiding], issued 29 November 02, 
effective 1 January 03. For discussion of these regulations, see 
``China Bans Sex-Selection Abortion,'' Xinhua, reprinted in China Net, 
22 March 03.
    \69\ According to United Nations Population Division statistics, 
China's sex ratio at birth (SRB) in 2010 was the highest in the world 
at 120 males per females born. The next highest was Azerbaijan at 117, 
followed by Armenia at 115, Federated States of Micronesia at 111, and 
the Republic of Korea at 110. Population Division of the Department of 
Economic and Social Affairs of the United Nations Secretariat, ``World 
Population Prospects: The 2010 Revision,'' 31 August 11. According to 
one demographer's analysis, ``ordinary human populations regularly and 
predictably report [SRBs of] 103 to 105.'' Nicholas Eberstadt, Swiss Re 
Center for Global Dialogue, ``The Demographic Risks to China's Long-
Term Economic Outlook,'' 24 January 11, 7. For recent statistics 
regarding sex-selective abortion in China see, Wei Xing Zhu, Li Lu, and 
Therese Hesketh, ``China's Excess Males, Sex Selective Abortion and One 
Child Policy: Analysis of Data From 2005 National Intercensus Survey,'' 
British Medical Journal, 9 April 09, 4-5. For one observer's analysis 
of these statistics, see ``A Study of Sex-Selective Abortion,'' China 
YouRen blog, 13 May 10.
    \70\ ``China Faces Increasing Gender Ratio,'' Xinhua, reprinted in 
China Daily, 9 August 11.
    \71\ See Valerie M. Hudson and Andrea M. den Boer, Bare Branches: 
Security Implications of Asia's Surplus Male Population (Cambridge: MIT 
Press, 2004).
    \72\ See ``China Gender Gap Fuelling Human Trafficking: Report,'' 
Agence France-Presse, reprinted in China Post, 22 September 10. See 
also, World Health Organization, Office of the High Commissioner for 
Human Rights, United Nations Population Fund, United Nations Children's 
Fund, and United Nations Entity for Gender Equality and the Empowerment 
of Women, ``Preventing Gender-Biased Sex Selection,'' 14 June 11, 5; 
Susan W. Tiefenbrun and Christie J. Edwards, ``Gendercide and the 
Cultural Context of Sex Trafficking in China,'' 32 Fordham 
International Law Journal 731, 752 (2009); Therese Hesketh et al., 
``The Effect of China's One-Child Policy After 25 Years,'' New England 
Journal of Medicine, Volume 353, No. 11 (2005), 1173; Nicholas 
Eberstadt, ``A Global War Against Baby Girls: Sex-Selective Abortion 
Becomes a Worldwide Practice,'' Handbook of Gender Medicine, reprinted 
in All Girls Allowed, 1 May 11. According to this report, ``Some 
economists have hypothesized that mass feticide, in making women 
scarce, will only increase their `value'--but in settings where the 
legal and personal rights of the individual are not secure and 
inviolable, the `rising value of women' can have perverse and 
unexpected consequences, including increased demand for prostitution 
and an upsurge in the kidnapping and trafficking of women (as is now 
reportedly being witnessed in some women-scarce areas in Asia)[.]''
    \73\ PRC State Council, PRC Outline for the Development of Women 
[Zhongguo funu fazhan gangyao], issued 30 July 11; PRC State Council, 
PRC Outline for the Development of Children [Zhongguo ertong fazhan 
gangyao], issued 30 July 11.

                                 <all>

</pre></body></html>
